Office of Inspector General

        SEMIANNUAL 

         REPORT TO 

         CONGRESS 


For the Period April 1, 2008 through September 30, 2008



                Report No. 39 





  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL 


                                 serves American taxpayers 

                           by investigating reports of waste, fraud, 

                        mismanagement, abuse, integrity violations or 

                         unethical conduct involving Federal funds. 




                               To report any suspected activity 

                     involving NEH programs, operations, or employees 


                                    Call the OIG Hotline

                                      1 (877) 786-7598



                                      Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                            Fax

                                       (202) 606-8329


                                  Electronic Mail Hotline

                                        oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential
     NATIONAL                                                              OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                             1100 PENNSYLVANIA AVE., NW
     FOR THE                                                               WASHINGTON, D.C. 20506
     HUMANITIES                                                            ROOM 419
                                                                           TELEPHONE(202) 606-8350
                                                                           FACSIMILE (202) 606-8329
                                                                           E-mail oig@neh.gov


                                      October 31, 2008

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to
Congress for the second half of fiscal year 2008. The report is submitted in accordance with
the Inspector General Act of 1978, as amended. Section 5 of the Act requires that you sub-
mit this report, with your Report of Final Action, to the appropriate committee or subcom-
mittee of the Congress within 30 days of its receipt. The report provides a summary of the
activities of the OIG during the six-month period ended September 30, 2008.

Internally, we reviewed and documented the agency’s requisition, purchasing, and accounts
payable systems/processes to gain an understanding of the internal and security controls
within each process. We also reviewed the agency’s efforts to comply with Office of Man-
agement and Budget (OMB) guidance for implementing privacy provisions of the
E-Government Act of 2002 concerning privacy impact assessments, and OMB requirements
for the development and implementation of a breach notification policy.

External effort consisted of two desk reviews of grantee compliance with OMB Circular
A-122 concerning support of salaries and wages; four reviews of grantee overhead rates; one
pre-award telephone survey of a prospective grantee’s accounting system and management
controls; and review of 54 OMB Circular A-133 audit reports.

In our investigations program, we had seven matters open as of the beginning of the report-
ing period. We received 15 “Hotline” contacts during the period. As of September 30, 2008,
seven matters remain open.

I appreciate your support and look forward to working with you and all agency staff to fur-
ther our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s
vital contributions to the humanities.

                                             Sincerely,


                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS 



LETTER TO THE CHAIRMAN 


MESSAGE FROM THE INSPECTOR GENERAL………………………………………………                                                                              1


THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          2


THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       2


AUDIT AND REVIEW ACTIVITIES .......................................................................................               3


INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                               9


OTHER ACTIVITIES..............................................................................................................   13 


FY 2008 MANAGEMENT CHALLENGES..………………………….......................................                                                 15     


PRIOR AUDIT REPORTS UNRESOLVED……………………………………………………...                                                                            19 


TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        20     


TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 21 

WITH QUESTIONED COSTS 


TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      21 

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      22     

                                 MESSAGE FROM THE INSPECTOR GENERAL


     Over the past several years, our workload has constantly increased in volume and complexity and, as a conse-
     quence, oversight of the Endowment’s grantees by the OIG is diminishing.

     The OIG is responsible for contracting with and reviewing the work of an independent public accountant that con-
     ducts the annual financial statements audit. The audit is required by the Accountability of Tax Dollars Act of
     2002, and applies to many small agencies as well as the Endowment. The Federal Information Security Manage-
     ment Act (FISMA) review has been performed for several years as required. Each year the Office of Manage-
     ment and Budget (OMB) issues guidance for the review. The National Institute for Standards and Technology
     (NIST) Computer Security Division issues publications that the agency is responsible for implementing. The OIG
     is responsible for reviewing the agency’s implementation. The General Accountability Office and the President’s
     Council on Integrity and Efficiency periodically update their various guidance on auditing, inspections and
     reviews, and investigations. This increases the burden on the OIG.

     OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, issued pursuant to the
     Single Audit Act of 1984, (as amended), sets forth audit guidance applicable to the expenditure of Federal awards
     by non-Federal entities. The threshold for an audit is the expenditure of $500,000 or more in a fiscal year. Con-
     sequently, the threshold level eliminates audits for a significant number of non-profit organizations that receive
     grants from the Endowment, including approximately 17 of the 56 state humanities councils. The President’s
     Council on Integrity and Efficiency issued a report on the single audits. The report disclosed that a majority of the
     work performed on OMB Circular A-133 audits did not meet professional standards. Thus, besides having fewer
     NEH grantees subject to the OMB A-133 audit, the reports issued are not totally reliable. This clearly indicates
     that the OIG needs more resources to provide adequate coverage of grantees. In addition, monitoring by pro-
     gram offices is not, in our opinion, adequate. (See FY 2008 Management Challenges).

     Another impact on our oversight of grantees is internal and grantee investigations. Opening an investigation has
     a significant impact on our audit plan because we do not have staff dedicated to investigation work. Therefore, it
     becomes necessary to reassign audit staff trained in investigation work to perform the investigation. With signifi-
     cant fluctuations on a yearly basis, it is difficult to be proactive concerning investigations or realistically budget
     staff time for this effort. Also, during the past several years, the NEH Office of General Counsel has operated
     with fewer staff than previously. The Deputy General Counsel is also the General Counsel to the IG. Therefore,
     we have been operating without counsel for some time.

     We previously noted that the OIG needs a part-time auditor. NEH has agreed to provide this position, and we will
     begin the recruitment process to fill the slot. The previous message from the Inspector General also stated that
     we need a part-time attorney. On September 27, 2008, the House of Representatives passed H.R. 928, the In-
     spector General Reform Act of 2008, which was previously passed by the Senate on September 24, 2008. (1)

     The Act provides that each Inspector General will have independent counsel. The law states:

                                “(4) Each Inspector General shall-

                   (A) in accordance with applicable laws and regulations governing appointments within the designated
                       Federal entity, appoint a Counsel to the Inspector General who shall report to the Inspector General;
                   (B) obtain the services of a counsel appointed by and directly reporting to another Inspector General on a
                       reimbursable basis; or
                   (C) obtain the services of appropriate staff of the Council of Inspectors General on Integrity and Effi-
                       ciency on a reimbursable basis.

     ( c ) Rule of Construction — Nothing in the amendments made by this section shall be construed to alter the du-
     ties and responsibilities of the counsel for any establishment or designated Federal entity, except for the availabil-
     ity of counsel as provided under sections 3(g) and 8G(g) of the Inspector General Act of 1978 (5 U.S.C. App.) (as
     amended by this section). The Counsel to the Inspector General shall perform such functions as the Inspector
     General may prescribe.”
     (1)
           On October 14, 2008, the President signed the bill.



NEH OIG Semiannual Report                                            1                                             September 2008
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Con-
      gress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act estab-
      lished the National Endowment for the Humanities as an independent grant-making agency of the Fed-
      eral government to support research, education, and public programs in the humanities. Grants are
      made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership. The divisions
      and offices also administer the We the People: NEH’s American History initiative.

      The NEH has a new initiative — Picturing America. This program “… provides an innovative way for
      citizens of all ages to explore the history and character of American through some of our nation’s great-
      est works of art. Images of people, places and events from American history give citizens everywhere
      a chance to better understand our country’s past and the principles for which it stands.” Information
      can be found at PicturingAmerica.neh.gov.

      The Act that established the National Endowment for the Humanities says "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics;
      literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criti-
      cism, and theory of the arts; those aspects of social sciences which have humanistic content and em-
      ploy humanistic methods; and the study and application of the humanities to the human environment
      with particular attention to reflecting our diverse heritage, traditions, and history and to the relevance of
      the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Of-
       fices of Inspector General in several departments and in thirty-three agencies, including the NEH. The
       NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an impor-
       tant aspect of the Act. For example, the IG: cannot be prevented from initiating, carrying out, or com-
       pleting an audit or investigation, or from issuing any subpoena; has access to all records of the
       agency; reports directly to the Chairman, and can only be removed by the Chairman, who must
       promptly advise Congress of the reasons for the removal; and reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The In-
       spector General is also responsible for keeping the Chairman and Congress fully and currently in-
       formed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secre-
       tary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of Understanding
       detailing the procedures for the OIG to be provided with OGC legal services. Investigations are han-
       dled by the Inspector General, an auditor, and as required by the agency’s Deputy General Counsel.




NEH OIG Semiannual Report                                      2                                                       September 2008
                               AUDIT AND REVIEW ACTIVITIES 


                                            LIST OF REPORTS ISSUED 

    This office is responsible for external and internal audits. External auditing includes grants, pre-award
    accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk reviews, limited
    scope desk reviews, and on-site quality control reviews of CPA workpapers. Internal efforts consist of
    audits, inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

    Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of
    1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to
    Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
    Value of Unsupported Costs”), [see Table II].

                                                                 Report Number                    Date Issued

   INTERNAL AUDITS/REVIEWS


             FISMA Review - Privacy Impact Assessments           OIG-08-02 (IR)                   09/08/08
              Process and Compliance and Breach Notification
              Policy

             FISMA Review - Review of Requisition,               OIG-08-03 (IR)                   09/18/08
              Purchasing And Accounts Payable
              System/Process

             FISMA Review - FISMA Reporting Document             OIG-08-04 (IR)                   09/25/08
              to the Office of Management and Budget


   EXTERNAL AUDITS/REVIEWS

             Iraq Memory Foundation                              OIG-08-04 (DR)                   08/28/08
             The Oasis Institute                                 OIG-08-05 (DR)                   09/16/08

             OVERHEAD DESK REVIEWS

             The Oasis Institute                                 NEH-08-07 (ODR)                  04/10/08
             Iraq Memory Foundation                              NEH-08-08 (ODR)                  07/07/08
             Museum of Northern Arizona                          NEH-08-09 (ODR)                  08/14/08
             Southeastern Library Network                        NEH-08-10 (ODR)                  09/25/08

             PREAWARD TELEPHONE SURVEY

             Walters Art Museum                                  OIG-08-01 (TS)                   06/03/08


             SINGLE AUDIT ACT REVIEWS
                                                                                      - see Page 7 -
             54 OMB Circular A-133 Reports




NEH OIG Semiannual Report                                    3                                                    September 2008
                                  AUDIT AND REVIEW ACTIVITIES 

                                         SUMMARY OF REPORTS ISSUED
                                               INTERNAL AUDITS/REVIEWS

                             Federal Information Security Management Act (FISMA) Review

                  Privacy Impact Assessments Process and Compliance and Breach Notification Policy

                                           September 8, 2008; OIG-08-02 (IR) 


    The purpose of our review was to 1) determine if formal written policies and procedures for privacy impact assess-
    ments (PIAs) exist and if they are being followed; and 2) determine if NEH has complied with OMB Memorandum M-
    07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information. We reviewed the
    agency’s formal written privacy policies, procedures and guidance as provided by the Chief Privacy Officer (CPO).
    We also reviewed OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-
    Government Act of 2002. We reviewed OMB Memorandum M-07-16 to determine its applicability to NEH and the
    agency’s compliance with the time frame for development and implementation of a breach notification policy, and the
    required elements of the policy.

    We found:

    • 	 NEH does not have formal written policies or procedures concerning PIAs. In response to our request for copies
        of the NEH’s formal written policies, procedures, and guidance on privacy, the CPO provided the NEH Interim
        Policy on Proper Handling of Personally Identifiable Information, Administrative Directive M-109 ~ Automated
        Systems and Services, and the privacy policies currently on the NEH website, (NEH.gov) and the Picturing
        America website. These policies do not cover PIAs. We were informed by the CPO, via e-mail, that the policies
        stated in OMB Memorandum M-03-22 are followed.

    • 	 NEH did not finalize and implement a breach notification policy within the time frame specified in OMB Memo-
        randum M-07-16. The CPO provided a draft of the NEH Breach Notification Policy. In his response to our ques-
        tions, the CPO indicated that NEH hoped to complete the final version of the policy during the fiscal year ending
        September 30, 2008. OMB Memorandum M-07-16 applies to all Federal information and information systems,
        and agencies were required to develop and implement a breach notification policy within 120 days of the May
        22, 2007 release date. As of the end of our fieldwork, August 27, 2008, NEH had not finalized or implemented a
        breach notification policy.

    NEH has agreed with our findings.

                                      Federal Information Security Management Act Review

                        Review of Requisition, Purchasing and Accounts Payable System/Process (Process) 

                                                September 18, 2008; OIG-08-03 (IR) 


    The purpose of our review was to document the entire Process to gain an understanding of the security and internal
    controls within the Process. We also sought to use the information gained to determine if the internal and security
    controls provide adequate security. The scope of our review was limited to the Process, including all applicable in-
    ternal and security controls in place as of the start of our review. In documenting the Process, we used available
    information systems documentation and interviewed personnel in the Administrative Services Office (ASO), Office of
    Strategic Planning (OSP), Accounting Office, and Office of Information Resources Management (OIRM). To test the
    Process, we reviewed purchase orders created by the ASO to determine if the required elements were present.

    We found:

    • 	 An individual had purchasing buyer privileges in the Oracle Accounting System (Oracle) but no longer had the
        day-to-day responsibilities that required these privileges. This individual formerly worked in the ASO, but has
        since taken a position in the NEH Office of Grant Management. Because of this individual’s knowledge, it was
        decided that he should retain the privileges as purchasing buyer so that he could carry out those functions as a
        back-up in emergency situations. The agency’s Systems Accountant has indicated that it would be possible for
        this individual to retain these privileges within Oracle but “end-date” them so they could be activated when nec-
        essary. In the event of an emergency, with the permission of the Oracle System Owner, it would be possible to
        quickly change this “end-date” and activate access for this individual.


NEH OIG Semiannual Report                                   4	                                                 September 2008
                                  AUDIT AND REVIEW ACTIVITIES 

                                          SUMMARY OF REPORTS ISSUED
                                         INTERNAL AUDITS/REVIEWS (Continued)

    • 	 The Director of the ASO has the capability to create a requisition. He has indicated that he has never created a
        requisition, but when necessary, he has downloaded them for entry as purchase orders in Oracle. We have
        been informed by the Information Technology Specialist in OIRM who developed and maintains the requisition
        portion of the Process, that the ability to create a requisition can be disabled without affecting the ability to
        download a requisition. It is the OIG’s opinion that, in keeping with the personnel security control of least privi-
        leged, the Director of ASO should not have the capability to create a requisition.

    NEH has agreed with our findings.


                               Federal Information Security Management Act Review

       Federal Information Security Act (FISMA) Reporting Document to the Office of Management and Budget 

                                         September 25, 2008; OIG-08-04 (IR) 


    The purpose of this template/document was to report the results of our annual FISMA review to OMB. This tem-
    plate/document and our other reviews was part of our total FISMA submission to OMB to be included with the
    agency’s FISMA submission. NEH has agreed with what the OIG reported in the FISMA document, and while pro-
    gress has been made, we believe that further steps need to be taken to improve security.




NEH OIG Semiannual Report                                    5	                                                   September 2008
                                      AUDIT AND REVIEW ACTIVITIES 

                                           SUMMARY OF REPORTS ISSUED
                                                    EXTERNAL AUDITS/REVIEWS


         During the six-month period ending September 30, 2008, we reported on the results of our desk reviews
         concerning the following organizations:

                            ♦   Iraq Memory Foundation [OIG-08-04 (DR)]
                            ♦   OASIS Institute [OIG-08-05 (DR)]

         The objective of each desk review was to assess the adequacy of the time and effort accounting policies
         and procedures implemented by the respective organizations to ensure compliance with OMB Circular A-
         122, Cost Principles for Non-Profit Organizations. The desk reviews were performed in accordance with
         PCIE/ECIE Quality Standards for Inspections.

                                                  Iraq Memory Foundation

                                               August 28, 2008; OIG-08-04 (DR) 


         Based on the results of our review and our understanding of the organization’s time and effort accounting
         policies and procedures, we concluded that such policies and procedures are adequate to ensure compli-
         ance with the requirements set forth in OMB Circular A-122 concerning support of salaries and wages. We
         have recommended that IMF routinely execute established procedures in a manner to ensure that errors in
         the completion of employee timesheets are detected and addressed timely. Also, the timesheet approval
         process should be strengthened to ensure that all timesheets are reviewed for completeness and accuracy
         and approved by the appropriate official.


                                                      OASIS Institute 

                                          September 16, 2008, 2008; OIG-08-05 (DR) 


         Based on the results of our review and our understanding of the organization’s time and effort accounting
         policies and procedures, we concluded that such policies and procedures are not adequate to ensure com-
         pliance with the requirements set forth in OMB Circular A-122 concerning support of salaries and wages.
         Personnel activity reports are maintained for individual employees; however, they are prepared quarterly
         and reflect predetermined effort allocations. It is our understanding that it is the responsibility of the Pro-
         gram Manager to review personnel activity reports to determine if they reflect reasonable allocations of ac-
         tual time and effort. We have communicated to the organization that the Program Manager’s review is not
         an acceptable control to compensate for the use of predetermined effort allocation factors, which are devel-
         oped by the President, the Director of Finance, and the Program Manager. We have requested and are cur-
         rently awaiting a written response from the organization describing actions that will be taken to address our
         observations.

                                                   Overhead Desk Reviews

         The OIG performs overhead desk reviews (ODRs) for grantees requiring indirect cost rates. The reviews
         are done in accordance with the PCIE/ECIE Quality Standards for Inspections. The OIG sends the results of
         the ODRs to the Assistant Chairman for Planning and Operations, who negotiates the indirect cost rates with
         the grantees. We completed four reviews during this period. (See page 3).




NEH OIG Semiannual Report                                     6                                                  September 2008
                                  AUDIT AND REVIEW ACTIVITIES 

                                         SUMMARY OF REPORTS ISSUED
                                        EXTERNAL AUDITS/REVIEWS (Continued)

                                                  The Walters Art Museum

                                                June 3, 2008; OIG-08-01 (TS) 


     We conducted a telephone survey with officials of The Walters Art Museum (Museum). The purpose of our
     survey was to obtain information to determine the adequacy of the organization’s accounting system, manage-
     ment controls, and policies and procedures designed to administer grant funds. Based upon the information
     obtained, we concluded that the accounting system, management controls, and administrative policies and pro-
     cedures provide reasonable assurance that the Museum can manage and account for NEH grant funds. We
     noted conditions to be addressed by the Museum to ensure compliance with Federal regulations. The Museum
     acknowledged our findings and responded that corrective action would be implemented immediately. We also
     requested and received written assurance from the Board Chair, Treasurer, Executive Director, Controller, and
     Project Director that the Museum will:

     1. Maintain supporting documentation in accordance with NEH and OMB regulations;

     2. Comply with all of the specific terms and conditions of the NEH award;

     3. Comply with the Uniform Administrative Requirements of OMB Circular A-110;

     4. Comply with the Cost Principles for Non-Profit Organizations (OMB Circular A-122);

     5. Comply with NEH General Grant Provisions for Organizations; and

     6. Comply with the audit requirements of OMB Circular A-133.

                                                 Single Audit Act Reviews

     During fiscal year 2008, more than 79 percent of NEH’s expenditures were payments made to grantees. The
     Single Audit Act Amendment of 1996 covers many NEH grantees. Grantees expending $500,000 or more in
     Federal dollars per annum are required to obtain an OMB Circular A-133 audit. The objective of the audit is to
     determine whether the recipients expend Federal funds according to applicable laws and regulations. The OIG
     receives OMB Circular A-133 reports from other Federal agencies (primarily the Department of Health and Hu-
     man Services), state and local government auditors, independent public accountants, and grantees.

     During the six-month period ended September 30, 2008, we reviewed 54 OMB Circular A-133 audit reports.
     None of the reports contained findings that required reporting by the OIG to NEH management.


                                                 WORK IN PROGRESS
     Inspection ~ Newport Historical Society

     The objectives of this inspection are to (1) assess the eligibility of gifts certified to release matching funds under
     a challenge grant awarded to Newport Historical Society (the Society); and (2) determine if the Society is using
     the income from the NEH-supported endowment in accordance with the budget submitted to and approved by
     NEH.




NEH OIG Semiannual Report                                     7                                                    September 2008
                                 AUDIT AND REVIEW ACTIVITIES 


                                      WORK IN PROGRESS (Continued)
     Financial Statement Audit ~ Fiscal Year 2008

     The OIG has engaged Leon Snead & Company, P.C. to perform the audit of the FY 2008 financial statements
     of the National Endowment for the Humanities in accordance with the Accountability of Tax Dollars Act of 2002.
     The audit will be conducted in accordance with auditing standards generally accepted in the United States, in-
     cluding standards applicable to financial audits contained in Government Auditing Standards; OMB Bulletin No.
     07-04, Audit Requirements for Federal Financial Statements, and the Financial Audit Manual, issued jointly by
     the Government Accountability Office (GAO) and the President’s Council on Integrity and Efficiency (PCIE).

     Desk Review of Documentation Related to Salaries and Wages Charged to NEH Grants ~ Museum of
     Northern Arizona

     The objective of this desk review is to assess the adequacy of the time and effort accounting policies and pro-
     cedures implemented by the Museum of Northern Arizona to ensure compliance with OMB Circular A-122, Cost
     Principles for Non-Profit Organizations.




NEH OIG Semiannual Report                                  8                                                September 2008
                                     INVESTIGATIVE ACTIVITIES 

                                                     BACKGROUND


  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible viola-
  tions of criminal or civil laws, administrative regulations, and agency policies, which relate to the programs and
  operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means of re-
  ceiving allegations or complaints from employees, grantees, contractors, and the general public. The OIG has
  obtained assistance from other OIGs, the Federal Bureau of Investigation, the Postal Inspection Service, and other
  investigative entities as necessary.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determination
  of the appropriate action to take. The result could be an audit, an investigation, a referral to another NEH office or
  division, a referral to another Federal agency, or no action.

  We sent an auditor to the Inspector General Criminal Investigator Academy at The Federal Law Enforcement Train-
  ing Center (FLETC) in Glynco, Georgia. The auditor is now in a position to perform all administrative investigations
  for the OIG. This auditor is also a Certified Fraud Examiner and a Certified Internal Auditor.

  Frequently, during the past several years, the OIG has received Hotline contacts and did not have sufficient re-
  sources to complete the inquiry or investigation in a timely manner. Therefore, to alleviate this problem, we will be
  inquiring of other OIGs if they will be willing and able to assist us under a reimbursable agreement. The agreement
  will be on an “as needed” basis.

                                                 OPEN AT APRIL 1, 2008

  Seven files were open at April 1, 2008.

  1. A grantee allegedly omitted critical information on a grant application for an archeological project. We obtained
  the services of a professor working for an archaeology association and learned that the omission of the information
  was not critical. We closed the case because the allegation was unsubstantiated.

  2. A grantee certified ineligible gifts, as part of a challenge grant, which were matched by NEH. During the last
  semiannual period, we reported that we recovered $283,000 of the $400,000 disbursed by NEH. During the current
  period, the grantee provided sufficient documentation to support the eligibility of the $117,000 balance. We closed
  this case.

  3. An NEH employee performing timekeeping duties falsified her own timesheets over a period of five years. The
  amount stolen from NEH amounted to approximately $35,000. The NEH Office of Human Resources discovered the
  problem. Administrative action was taken, and the employment of the person was terminated. The OIG presented
  information concerning this matter to the Department of Justice Criminal Division (DOJ). DOJ recently informed the
  OIG that additional information is required before they accept or decline the case. The OIG is getting the information
  ready to be sent to DOJ. This matter remains open.

  4. The U.S. General Accountability Office received an allegation concerning improper actions by a former executive
  director of a state humanities council. GAO referred the matter to the NEH OIG. The OIG has recently received in-
  formation from the Council concerning the allegation. The Council has a new executive director, new staff, and sig-
  nificant changes in Board membership. We are planning to begin our review in mid- November. This matter re-
  mains open.

  5. A matter was brought to our attention by NEH staff that Board members of a grantee were resigning because the
  grantee was allegedly wasting funds on a lavish hotel, including NEH challenge grant funds. Since the NEH chal-
  lenge grant has ended and the funds were unrestricted after the grant period, we referred the matter to the general
  counsel and closed our file.

  6. A former employee of a grantee organization made an anonymous allegation that the organization falsified infor-
  mation on a challenge grant application. Our review revealed that the allegation was unsubstantiated. However, we
  found information on the grantee’s website that prompted us to refer this matter to the OIG audit section. Therefore,
  this investigation matter is closed.

NEH OIG Semiannual Report                                    9                                                September 2008
                            INVESTIGATIVE ACTIVITIES (Continued) 


     7. A person that did not win a contract with a state humanities council claimed that the group obtaining the con-
     tract was not qualified. We found that the successful group was qualified and closed the case. However, we rec-
     ommended to the Council that future requests for proposals to perform work for the Council should be more spe-
     cific to avoid similar problems.

                       CONTACTS DURING THE SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2008

     During the current reporting period, we received fifteen Hotline contacts.

     1. An individual claiming to have a specific patent alleged that the NEH and many other Federal agencies acquir-
     ing Access Identification Cards under a U.S. General Service Administration contract are infringing on the individ-
     ual’s patent. We referred the individual to the GSA and closed our file.

     2. An individual stated that an application on file for an NEH challenge grant includes a significant amount of
     funds for a person that allegedly took credit for inventing products made by others. Our review of the application
     file did not disclose that federal funds would be used to honor the person identified in the allegation. Furthermore,
     the individual making the allegation could not provide any evidence to substantiate the allegation. We closed our
     file based on the allegation having no merit.

     3. A former employee of an organization in receipt of an NEH fellowship grant alleged that the project director
     only spent about 20 hours on the project while receiving $40,000 from the NEH. The person stated that he and
     the project director only made copies of material previously worked on by the project director. The OIG expects to
     look into this matter during the next semiannual period. This case remains open.

     4. We received a call on our Hotline from an employee of the National Aeronautics and Space Administration
     (NASA) OIG informing the NEH that a grantee, in receipt of funds from several federal agencies, was allegedly
     changing the scope of the project. The allegation also stated that the project director was using funds for his per-
     sonal matters. The Assistant United States Attorney in Atlanta, Georgia is working with several OIGs on this
     case. We reviewed our files and found that the project director received a $25,000 grant in 1992, a year prior to
     the period being investigated for other federal grants. We are monitoring the work of the other OIGs and will be
     making a determination if the NEH funds were misused. This case remains open.

     5. A person contacted us anonymously through our Hotline phone and wanted to know if NEH grantees could hire
     contractors on a sole-source basis. The person did not leave any information; therefore, we closed our file.

     6. An NEH employee sent the OIG an e-mail disclosing that a current NEH employee was on a list of federal em-
     ployees whom obtained a diploma from a diploma mill. The OIG found that the individual received the diploma
     after being hired by NEH. Furthermore, there is no mention of this degree in the individual’s personnel file. We
     closed our case since the impact of the allegation is inconsequential.

     7. A rejected applicant of NEH alleged that the panel process is flawed and the justification for the rejection of the
     application shows lack of knowledge on the part of the panelists and NEH staff. The OIG did some preliminary
     work and found no merit to the allegation. The person making the allegation then claimed that the OIG reviewed
     the wrong application. During the next reporting period, we will complete the review of this case. Thus, this case
     is still open.

     8. An individual contacted the OIG Hotline and alleged that he was not considered for acceptance to a summer
     institute hosted by an NEH grantee based on his national origin. The OIG found that the allegation had no merit.
     The person was not accepted because he did not meet the specific criteria for participation in the summer insti-
     tute. Furthermore, this person previously attended another summer institute hosted by the grantee organization.
     This matter has been closed.

     9. A former employee of a southwestern city government alleges that the city “padded” telephone invoices
     charged to federal and state grants. This person contacted over 50 state and federal agencies with this allega-
     tion. Since the amounts associated with the NEH grants were immaterial in relation to the other state and federal
     grants, we advised the person to contact some of the largest grantors. We closed our file.


NEH OIG Semiannual Report                                    10                                                 September 2008
                            INVESTIGATIVE ACTIVITIES (Continued) 


     10. We received a Hotline letter from a former board member of a state humanities council alleging mismanage-
     ment by the Council. The contact further alleged that some current Board members are professors at colleges
     and universities in the state and vote on applications submitted by their respective employers. The OIG has not
     had the resources to review this matter. We expect to work on it during the next reporting period. This matter
     remains open.

     11. We received an allegation stating that we should look into a certain organization that is involved in wrongdo-
     ing. We determined that the allegation was erroneously sent to NEH. Thus, we closed our file.

     12. A participant in an NEH-supported summer workshop did not receive the funds that he was due. Ultimately,
     the person received the funds 76 days after the payment was due to him. The institution failed to pay others in
     addition to this person. We closed our file. We will notify the NEH programs that oversee grants to colleges, uni-
     versities, and other organizations for workshops that participants must be paid on time, especially if the organiza-
     tion has received the federal funds.

     13. Anonymously, through the NEH e-mail hotline system, an NEH employee alleged that NEH was violating the
     Office of Personnel Management Merit System Principles. The person alleged that a conversation was overheard
     regarding an individual’s appointment to an acting director position without competition and that the person would
     later be selected as director, after an announcement is released in a closed competition for NEH employees. We
     conducted an investigation that included another allegation concerning Merit System Principles. We were unable
     to substantiate the allegations after we found that one person made an allegation that someone said something
     and the other person denied that the statement was made. We closed our case.

     14. An NEH division director informed the OIG that an award was made to an association that conducts business
     on a university campus. The project director passed away and the association and the university were in a legal
     battle to control the project. We reviewed the grant file and met with the division director and staff. We advised
     the director that the situation must be monitored closely to protect the federal funds that have been disbursed to
     the grantee. It is possible that an investigation or audit will be necessary in the future. Our file remains open.

     15. A participant in an NEH-supported summer institute contacted the OIG alleging that the project director did
     not pay her in a timely manner and did not disclose the deductions made to the payment in the brochures adver-
     tising the summer institute. We worked with NEH program staff to resolve this issue. As mentioned above, we
     will request that NEH division directors inform summer institute and seminar directors that when NEH pays their
     organization, the participants should be paid. This matter is closed.


                                              OPEN AT SEPTEMBER 30, 2008

     As of September 30, 2008, we have seven matters open. Two matters that were open at the beginning of the pe-
     riod remain open, while five cases from the fifteen received this period are open.


                                MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

     We did not refer any matters to prosecutive authorities during the current reporting period. During September
     2008, the Department of Justice (DOJ) Criminal Division informed the OIG that they required additional informa-
     tion concerning the internal matter referred during the prior reporting period. We are gathering the information
     requested and then we will meet with DOJ attorneys.




NEH OIG Semiannual Report                                    11                                                September 2008
                             INVESTIGATIVE ACTIVITIES (Continued)



                                         HOTLINE AND PREVENTION ACTIVITIES

    We maintain a toll-free Hotline phone number, an agency e-mail address, and an internet address to provide
    additional confidentiality for those persons bringing matters to the attention of the OIG. We periodically issue
    agency-wide e-mail messages informing NEH staff of violations that are reportable to the OIG. We also send e-
    mail messages several times during the year to inform NEH staff about the OIG operations. Posters advising
    staff to contact the OIG are displayed throughout the agency’s facilities.



                                        SUMMARY OF INVESTIGATION ACTIVITY


                                         Open at beginning of period             7



                                      Matters brought to the OIG during
                                             the reporting period                15


                                         Total investigative contacts            22

                                    Closed, referred, or no action needed
                                         during the reporting period             15

                                            Open at end of period                7




NEH OIG Semiannual Report                                  12                                               September 2008
                                             OTHER ACTIVITIES 


                                   REGULATORY AND LEGISLATIVE REVIEWS


 The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
 tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the econ-
 omy and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and de-
 tect fraud and abuse. During this period, no legislative reviews were required.


                                           WORKING WITH THE AGENCY

 OIG staff attend various NEH meetings - panel meetings (where grant applications are reviewed by outside consult-
 ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
 staff), and the National Council meeting. Also, the IG or Deputy IG attends the Chairman's monthly policy group
 meetings. The Office of Inspector General contributes to the discussions but does not participate in policymaking.


                              PARTICIPATION ON THE EXECUTIVE COUNCIL ON

                                       INTEGRITY AND EFFICIENCY



  In 1992, the President established the Executive Council on Integrity and Efficiency (ECIE) to coordinate and imple-
  ment government-wide activities to combat fraud and waste in Federal programs and operations. OIG staff regularly
  attend ECIE meetings and provide input to the ECIE. The Inspector General is a member of the Audit Committee of
  the President's Council on Integrity and Efficiency, and participates in the Misconduct in Research meetings. In addi-
  tion, he is a member of the Grant Fraud Committee, a subcommittee of the National Procurement Fraud Task Force.
  The Deputy IG participates in the Single Audit Roundtable and the Federal Audit Executive Council (FAEC). One sen-
  ior auditor attends the monthly meetings of the Financial Statement Audit Network, a subcommittee of the FAEC.


                                          INTRA-GOVERNMENTAL ACTIVITY

  Congressional Inquiry

  We responded to a follow-up inquiry from the Honorable Henry A. Waxman, Chairman of the House of Representa-
  tives ~ Committee on Oversight and Government Reform concerning recommendations made by the OIG from Janu-
  ary 1, 2001 to the date of the inquiry that have not been implemented by agency officials.


                                            OIG INTERNET AND INTRANET

  The OIG has posted several semiannual reports on the internet and on the NEH intranet. The reports are accessible
  through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

  To advance NEH staff recognition of the OIG mission and responsibilities, we provide links to several other Federal
  agencies such as the Office of Management and Budget, the General Accountability Office, the Office of Government
  Ethics, and the IGNET.




NEH OIG Semiannual Report                                 13                                               September 2008
                                   OTHER ACTIVITIES (Continued)

                                              TECHNICAL ASSISTANCE

 Throughout the reporting period, OIG staff provided telephone technical help to NEH grantees and independent pub-
 lic accountants about various matters. Generally, these involve the preparation of indirect cost proposals and imple-
 mentation of the audit requirements of OMB Circular A-133.

 The Office of Inspector General previously published an Accounting System Manual for State Humanities Councils
 which describes a generic accounting system specifically designed for the needs of the state councils. The manual
 was last revised in September 1999. During this reporting period, OIG staff worked on revisions to the manual to in-
 corporate updated information and amend model transactions to conform with generally accepted accounting princi-
 ples.


                  ASSISTANCE TO THE INSTITUTE OF MUSEUM AND LIBRARY SERVICES (IMLS)

 The National Endowment for the Humanities OIG has an interagency agreement to provide investigation assistance
 to the IMLS. The NEH OIG’s responsibilities are limited to an internal review of any allegation, and to obtain inves-
 tigation assistance from another OIG to perform the work. The agreement allows the NEH OIG to recover all direct
 costs and other costs that meet the legal requirements of the Economy Act. During this period, IMLS did not re-
 quest any assistance from the NEH OIG.




NEH OIG Semiannual Report                                  14                                                September 2008
                              FYE 2008 MANAGEMENT CHALLENGES
                                   SEPTEMBER 30, 2008

                                                        BACKGROUND

 For the past several years in the September 30th Semi-Annual Report, the Office of Inspector General has submitted
 an annual statement of what we consider to be the most important management and performance challenges requir-
 ing action by the National Endowment for the Humanities.

 The agency has made significant improvements in several areas and we are happy to note that the financial manage-
 ment system and Information Resources Management are not on this year’s list of challenges. We have added
 Grants Management to emphasize that monitoring of the grants needs to be strengthened and consistent throughout
 the NEH.

 The most serious challenges for the agency are:

           •	   Strengthening Information Security
           •	   Continue to Improve Planning and Performance Measurement in Accordance with the Results Act
           •	   Strategic Management of Human Capital
           •	   Continuity of Operations
           •	   Grants Management

 Strengthening Information Security

           NEH has diligently taken steps to improve the security of the agency information system. The agency is fol-
           lowing OMB and NIST guidance more vigorously. NEH is currently providing computer hardware and software
           to the National Archives and Records Administration (NARA) for NARA’s use in managing their grant admini-
           stration program. NEH has determined that security features, such as firewalls, minimize the security risks
           associated with these additional responsibilities. While tremendous progress has been made in the area of
           information security, we believe the agency would benefit from a full penetration test (including social engi-
           neering) to determine the system’s weaknesses, employment of a log management system to monitor intru-
           sions and continually test the strength of user passwords. NEH’s Office of Information Resources Manage-
           ment performs some password cracking; however, it must be performed on a regular basis and staff should
           be held accountable for a weak password. We understand that the NEH Office of Information Resources
           Management will be implementing a new system to strengthen and eliminate password concerns.

           Without strong IT security, the confidentiality, integrity and availability of the agency’s information are threat-
           ened. The agency needs a comprehensive security review of the IT security program. The review should
           encompass:

           • 	 assessing implementation of existing requirements;
           • 	 evaluating the effectiveness of the IT security organizational structure;
           • 	 verifying the accuracy of incident and status reports and evaluating the effectiveness of policy
               enforcement efforts; and
           • 	 enhancing network security monitoring capabilities, assessing feasibility of an intrusion detection system.

           Log management and review would be a first step to provide a reasonable level of assurance that security
           incidents are detected, resolved, and reported in a timely manner.

           We will continue to report IT security as a management challenge and potential risk to allow NEH manage-
           ment to continue focus on this area.




NEH OIG Semiannual Report                                       15	                                                 September 2008
                              FYE 2008 MANAGEMENT CHALLENGES
                              SEPTEMBER 30, 2008 (Continued)

 Continue to Improve Planning and Performance Measurement in Accordance with the Results Act

           NEH has made progress over the past several years. However, more effort is required to make the case for
           justifying NEH as a positive results oriented organization. In the past NEH has relied heavily on anecdotal
           examples of success. Now NEH is measuring outputs rather than outcomes. The OIG recognizes that meas-
           uring the benefits of many NEH programs is difficult. Program offices and divisions should gradually collect
           outcome-related data from grantees. As an example, while we have learned that a high school teacher uses
           knowledge gained at a summer seminar during instruction to approximately 250 students a year, we do not
           know how the students are affected. Do they read more books on the topic, are they thinking about taking
           more courses on the same topic in college? What is the actual effect of a summer seminar on the students of
           the teacher attending the seminar? Further, what does the school principal and the department chair see as
           the outcome of the teacher taking the seminar? These measurements would have to be developed several
           years after the teacher attended the seminar.

           We believe obtaining outcome-based data from grantees would more indicative for performance measure-
           ment than collecting output data. However, we recognize that relying on data quality and evaluating program
           effectiveness on information generated by grantees does not provide a comfort level of accurate information.
           The GAO and other OIGs have noted numerous incidences of high error rates in grantee-reported perform-
           ance data and this raises concerns about the use of data for decision-making. Nevertheless, obtaining out-
           come information would be a significant improvement.


 Strategic Management of Human Capital

 Positive Action Taken

           • 	 Human capital is a high risk for the federal government due to the large number of baby-boomers that are
               expected to retire in the next three or four years. NEH will face the same situation. NEH recognized this
               problem when four staff from the Office of Grant Management (OGM) indicated they would retire within a
               one-year period. All four staff had over 30 years of experience in that office. NEH was proactive and
               brought replacement staff on board before three of the four people retired. Because of this succession
               planning strategy, the new staff under the guidance of some of the remaining long-term staff, has done
               well in processing grant actions and applications. NEH deserves much credit for their approach to ad-
               dress the human capital challenge.

 Additional Action Needed

           • 	 NEH can ensure that the next wave of OGM staff retirements will go smoothly by providing grant man-
               agement training to the recently hired employees. Off-site training would offer the new staff the benefit of
               learning how other agencies handle problems while obtaining knowledge of the Office of Management
               and Budget circulars that pertain to and affect grant administration. This will put the recent hires into a
               position to become efficient grant administrators.

           • 	 The OGM has well written procedure manuals with standard forms and language used in the letters to
               applicants and grantees. However, many of the program offices and divisions do not have comparable
               operations manuals. Therefore, it would be beneficial for program offices to document procedures and
               processes that are necessary to perform their work. This would be useful for the next generation of pro-
               gram staff and would facilitate consistent processing of grant applications.




NEH OIG Semiannual Report                                     16	                                               September 2008
                              FYE 2008 MANAGEMENT CHALLENGES
                              SEPTEMBER 30, 2008 (Continued)
           • 	 The OIG recommends that NEH develop a comprehensive five-year strategic human capital plan. The
               plan should identify human capital goals and human capital initiatives, including knowledge management
               and succession planning. Knowledge management involves capturing critical information and making the
               right information available to the right people at the right time to assure that knowledge and experience of
               the current staff is passed on to the next generation of NEH staff. This includes mentoring, early replace-
               ment hiring and rehiring annuitants. (NEH has taken some of these positive steps and we commend them
               for this action.) One of the first steps would be to develop a measurement system (workload analysis
               tool) to determine the FTE needs of the agency, especially in the program offices and divisions.

           • 	 A critical component in implementing the human capital plan is provision for management succession.
               Individuals with the potential to become managers should be identified, provided on-the-job and formal
               management/leadership developmental opportunities. This would strengthen organizational stability, the
               retention of institutional knowledge, and the infusion of new talent. Then when the occasion occurs, these
               staff can be promoted to higher positions. This, as part of a human capital plan, should be linked to the
               Agency’s Strategic Plan for long-term achievement of the Agency’s mission.

 Continuity of Operations

          The agency has developed a Continuity of Operations Plan (COOP); it has not been signed by the Chairman
          and is not part of the NEH Administrative Directives manual. One part of the plan pertains only to information
          technology, and while extremely important, the agency relies on paper documents in conducting its business.

          The plan contains an agreement with the Millennium Challenge Corporation wherein either agency will assist
          the other in case a disaster occurs. The agreement only covers a disaster if it occurs in either one of the
          buildings occupied by each organization. Millennium is located at 875 15th Street, NW Washington, DC. If the
          downtown area of DC were closed, then execution of the agreement would not be viable. The agreement cov-
          ers the assistance of Information Technology Equipment and it appears reasonable for a building disaster.
          One major area that it does not cover is payments to staff, suppliers, grantees and contractors where pay-
          ment is made through the U.S. Treasury system.

           Having a formal, inclusive (covering all NEH operations) and tested COOP is a valuable tool for NEH readi-
           ness for a sudden event where the staff may not be in a position to work in the Old Post Office Building for
           several weeks or more. NEH needs a plan that will have staff working within an acceptable timeframe if a
           manufactured or natural disaster prevented employees’ admission to the building. NEH has taken positive
           action by obtaining the services of a software program where staff can work at home by accessing the NEH
           computer system. However, if no NEH staff has access to the building, staff may not be able to remotely ac-
           cess the computer system.

           The plan must also take into consideration the agency’s heavy reliance on paper files and documentation. If
           the building is lost, NEH would lose those documents and records, as they are not adequately secured. In
           addition, the agency needs a plan that will allow it to make payments through the U.S. Treasury system.
           The OIG understands that the agency has a committee working on the finalization of the plan.

 Grants Management

           We are including grants management as a challenge because of the inherent nature of a grant. A grant is
           financial assistance for an approved activity with performance responsibility resting primarily on the grantee,
           with little or no Government involvement in the funded activity. Although NEH has few incomplete grants
           (based on the grantee submitting a final financial and narrative report), grant oversight and monitoring is a
           concern of OIG. NEH does not have agency-wide standard operating procedures concerning grant oversight
           and monitoring. For example, some the program officials visit grantees on a regular basis, while others do
           not. The agency would benefit from an agency-wide policy wherein adverse conditions that may delay com-
           pletion of a grant-funded project are identified, thus requiring more oversight and monitoring. The additional
           monitoring can be accomplished with site visits, telephone and teleconference, e-mail and by requesting spe-
           cific documentation be sent to NEH.

NEH OIG Semiannual Report                                    17	                                              September 2008
                             FYE 2008 MANAGEMENT CHALLENGES
                             SEPTEMBER 30, 2008 (Continued)

        The Single Audit Act (OMB Circular A-133 audits) was enacted to provide audit coverage for grant making
        agencies. Originally, grantees receiving $25,000 or more were subject to limited audit requirements; and
        grantees receiving $100,000 or more were subject to the Circular. These audits were to give agencies such
        as NEH, oversight of more than grant expenditures. The law has been amended wherein the requirement for
        an audit is now $500,000 or more of federal expenditures by a grantee in its fiscal year. This threshold is high
        for NEH grantees, and consequently, a significant number of non-profit organizations do not receive audit
        coverage. Colleges and universities, state and local governments “include NEH” awards, however, NEH
        grants are too small to be included in audit testing. To further compound this situation, the OIG is troubled
        about the adequacy and reliability of information being reported in these audits. Public accountants or state
        auditors perform the audits. When the OIG conducted Quality Control Reviews of public accountants, we
        found many deficiencies in their work. Last year the President’s Council on Integrity and Efficiency issued a
        report stating that almost half of the audit reports had serious deficiencies making many unreliable.




NEH OIG Semiannual Report                                    18                                                September 2008
                            PRIOR AUDIT REPORTS UNRESOLVED 



     • 	 Several recommendations from prior FISMA and Information Technology Security reviews remain to
         be addressed. The staff of the NEH Office of Information Resources Management is currently working
         on implementing some of the recommendations.




NEH OIG Semiannual Report                                19	                                              September 2008
                                                  TABLE I


                               REPORTING REQUIREMENTS 



       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews……………………………… 13

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 11

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Reports Issued………..……………………………………… 3

       Section 5(a)(7)        Summary of Reports Issued.………………………………………. 4-7

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 21

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 21

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… 19

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…. *



        * None this period




NEH OIG Semiannual Report                                 20                                          September 2008
                                                     TABLE II 

                                        INSPECTOR GENERAL-ISSUED REPORTS 

                                              WITH QUESTIONED COSTS 



                                                                               Number     Questioned     Unsupported
                                                                             Of Reports    Cost            Cost
         A. 	 For which no management decision has been made by the              -1-       $100,000        $-0-
              commencement of the reporting period.

         B. 	 Which were issued during the reporting period.                     -0-        $ -0-          $-0-

                                   Subtotals (A+B) 	                             -1-       $100,000        $-0-

         C. 	 For which a management decision was made during
              the reporting period.

                  i. 	 Dollar value of disallowed costs.                         -0-        $ -0-          $ -0-

                  ii. 	 Dollar value of costs not disallowed (grantee            -0-        $ -0-          $ -0-
                        subsequently supported all costs).

                  iii. 	 Dollar value of costs not disallowed based on the       -0-        $ -0-           $ -0-
                         “Value of Services Received.”

         D. 	 For which no management decision has been made by the              -1-       $100,000        $ -0-
              end of the reporting period.

         E. 	 Reports for which no management decision was made within           -1-       $100,000        $ -0-
              six months of issuance.




                                                    TABLE III 

                                       INSPECTOR GENERAL-ISSUED REPORTS 

                              WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE 



                                                                                                       Number        Dollar
                                                                                                       Of Reports    Value

         A. 	 For which no management decision has been made by the commencement                        -0-         $-0-
              of the reporting period.

         B. 	 Which were issued during the reporting period.                                            -0-         $-0-

         C. 	 For which a management decision was made during the reporting period.                      -0-        $-0-

                  i. 	Dollar value of recommendations that were agreed to by management.                            $-0-

                  ii. Dollar value of recommendations that were not agreed to by 	                                  $-0-
                      management.

         D. 	 For which no management decision was made by the end of the reporting period.              -0-        $-0-




NEH OIG Semiannual Report                                       21	                                                  September 2008
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   22                                              September 2008
